AAAAAAAAAAAAAAA




              U.S. Department of Energy
              Office of Inspector General
              Office of Inspections and Special Inquiries




Inspection Report

Protective Force Training at the
Department of Energy’s Oak Ridge
Reservation




DOE/IG-0694                                        June 2005
PROTECTIVE FORCE TRAINING AT THE DEPARMENT OF
ENERGY’S OAK RIDGE RESERVATION



TABLE OF
CONTENTS



              OVERVIEW

              Introduction and Objective        1

              Observations and Conclusions      1


              DETAILS OF FINDINGS

              Combat Readiness Training         3

              Protective Force Overtime         6

              On-the-Job Training               7


              RECOMMENDATIONS                   8


              MANAGEMENT COMMENTS               9


              INSPECTOR COMMENTS                10


              APPENDICES

              A. Scope and Methodology          12

              B. Prior OIG Reports              13

              C. Management Comments            14
Overview

INTRODUCTION       The Department of Energy (DOE) mission at the Oak Ridge
AND OBJECTIVE      Reservation, which includes the Y-12 National Security Complex
                   (Y-12), the Oak Ridge National Laboratory, East Tennessee
                   Technology Park (ETTP), and the DOE Federal office complex,
                   requires a paramilitary protective force comprised of several
                   hundred security police officers to safeguard the production and
                   storage of nuclear weapons components, special nuclear material,
                   and other sensitive work. The force also includes a Special
                   Response Team (SRT) at Y-12 comprised of specially trained
                   officers who are responsible for engaging and defeating
                   adversaries with advanced capabilities. The protective force is
                   required to complete refresher training each year to ensure that
                   each officer maintains the skills necessary to protect DOE assets
                   from theft and other acts that may cause adverse impacts on
                   national security or the health and safety of the public.

                   Wackenhut Services, Inc. (Wackenhut), which is a security
                   contractor, provides protective force services, including refresher
                   training, for the Oak Ridge Reservation.

                   The Office of Inspector General (OIG) received an allegation that a
                   security police officer at the Oak Ridge Reservation was given
                   credit for training that was not received. Therefore, the objective
                   of this inspection was to determine if the protective force training
                   program at the Oak Ridge Reservation was being appropriately
                   implemented.

OBSERVATIONS AND   Our inspection confirmed the essence of the facts presented in the
CONCLUSIONS        allegation. Of greater importance, we concluded that the protective
                   force training program at the Oak Ridge Reservation was not being
                   appropriately implemented. Specifically, we found that:

                   •   Protective force personnel, on average, spent about 40 percent
                       less time on combat readiness refresher training than that
                       specified in the approved Fiscal Year (FY) 2004 training plan.
                       Further, there is evidence that for some personnel, Wackenhut
                       reported planned rather than actual training time in its quarterly
                       protective force strength and overtime reports to the
                       Department.

                   •   Protective force personnel at Y-12 routinely worked in excess
                       of 60 hours per week. This was in direct contradiction to the
                       DOE Protective Force Program Manual, which established a 60
                       hour maximum threshold for safe operations. There was



Page 1                                Protective Force Training at the Department
                                               of Energy’s Oak Ridge Reservation
             evidence that working excessive overtime negatively impacted
             the ability or willingness of some protective force personnel to
             complete required physical fitness training.

         •   Some protective force personnel signed attendance rosters for
             on-the-job refresher training without receiving the training.

         Wackenhut officials took the position during our review that
         attempting to correlate specific training tasks to time requirements
         may not be a valid test of the quality of the protective force
         training program. They also took the position that there are other
         performance metrics which are more important, such as meeting
         the DOE minimum qualification requirements. We recognized this
         concern as our work evolved in this area. However, we concluded
         that the Department’s safeguards and security specialists
         established time-related benchmarks for training based on
         substantial subject matter expertise and many years of training
         experience. Thus, while our report includes a recommendation
         that the Department review its protective force training standards,
         in the absence of new training metrics, we concluded that our
         evaluation of the training program at the Oak Ridge Reservation
         relied on the best information available.

         The OIG has issued a number of reports concerning protective
         force training. A listing is provided at Appendix B of this report.




Page 2                                    Observations and Conclusions
Details of Findings

COMBAT READINESS      We found that protective force personnel, on average, spent
TRAINING              about 40 percent less time on combat readiness refresher training
                      than that specified in the approved FY 2004 training plan. The
                      training plan was required by DOE Manual 473.2-2, Protective
                      Force Program Manual. Further, there is evidence that for some
                      protective force personnel, Wackenhut reported planned rather
                      than actual training time in its quarterly protective force strength
                      and overtime reports to the Department.

                      Both Title 10 of the Code of Federal Regulations, Part 1046 (10
                      CFR 1046), Physical Protection of Security Interests, and the DOE
                      Protective Force Program Manual require security police officers
                      to complete annual security refresher training to maintain the
                      competencies needed to fulfill their protective force mission. The
                      refresher training is based on lesson plans and associated training
                      hours developed and approved by the DOE National Training
                      Center (NTC). NTC develops protective force training courses,
                      such as firearms training, and assigns a number of hours to each
                      course for the training. Each year DOE sites develop and approve
                      protective force training plans that include training courses
                      developed by the NTC, as well as additional training to address
                      training needs that are specific to the site. For example, the Oak
                      Ridge site-specific training plans for FY 2004 consisted of training
                      courses to provide SRT officers a total of 154 hours of combat
                      readiness refresher training, which included training hours
                      developed by the NTC. The Oak Ridge training plans also
                      provided for non-SRT officers to receive a total of 66 hours of
                      combat readiness refresher training. We were informed by a
                      Wackenhut training official that the majority of protective force
                      training for the Oak Ridge Reservation is based on training courses
                      developed by the NTC. The training plans and associated training
                      hours were approved by Oak Ridge Office management in
                      September 2003 and Y-12 Site Office management in October
                      2003.

SRT Officers          Training transcripts list all of the training courses taken by a
                      protective force officer and the time designated for each course.
                      Protective force officers attend combat readiness refresher training
                      based on shift assignments; and, travel together as a shift to and
                      from the training center. We reviewed training transcripts, training
                      attendance rosters, payroll charges, and site access records for ten
                      percent of the SRT officers. Our review included SRT officers
                      from four different shifts at Y-12 so as to be representative of the
                      population.




Page 3                                                                Details of Findings
                   We determined that the SRT officers in our sample spent
                   significantly less time in training than was designated by the
                   approved training plan. Specifically, the SRT officers spent an
                   average of 89 hours on training in various combat readiness skills,
                   but were credited with completing the entire 154 hours of training
                   designated in the approved FY 2004 training plan. For example:

                   •   A training transcript listed seven separate training courses
                       taken on the same day, including a team tactical exercise and
                       chemical and biological warfare training. The approved
                       training plan designated 13.5 hours for this training. However,
                       the SRT officers spent less than 4 hours in training.

                   •   A training transcript gave credit to SRT officers for 12
                       weapons and team tactical training courses on the same day.
                       The approved training plan designated 16.5 hours for this
                       training. However, the SRT officers spent about 5 hours in
                       training.

                   •   A training transcript gave credit to SRT officers for 12 training
                       courses, on the same day, involving training on vehicle assault,
                       handgun malfunctions, and the use of force. The approved
                       training plan designated 24 hours for this training. However,
                       the SRT officers spent 4.5 hours in training.

Non-SRT Officers   We also determined that non-SRT protective force officers did not
                   spend the amount of time in combat readiness refresher training
                   designated by the approved training plan. The FY 2004 approved
                   training plan designated 66 hours of refresher training for these
                   officers in various combat readiness skills. Based on a limited
                   sample, we found that these officers only received an average of 44
                   hours of training. However, unlike the SRT officers, who received
                   credit on their training transcripts for the total time designated in
                   the training plan, the non-SRT officers generally only received
                   credit for the hours of refresher training they actually performed.

                   We compared refresher training at the Oak Ridge Reservation with
                   that provided by a contractor at another major Department site. In
                   contrast, we found the protective force officers at the other site,
                   both SRT and non-SRT officers, on average, spent close to 100
                   percent of the time designated by their approved training plan in
                   combat readiness refresher training. We also found that the
                   training plans for both sites called for a similar number of hours for
                   combat readiness refresher training.




Page 4                                                             Details of Findings
Reporting   As part of the award fee self-evaluation process, Wackenhut
            reported that it had met all the training objectives outlined in the
            Y-12 annual training plan. In addition, quarterly reports submitted
            to DOE by Wackenhut reflected that SRT officers received the
            total number of training hours designated in the training plan, not
            the number of hours they actually trained. We noted the DOE
            contract allows Wackenhut to group training hours with hours
            incurred to perform other aspects of the contract. In our view,
            grouping the reduced training hours with other hours, in
            conjunction with the Wackenhut reports to DOE of higher training
            hours, may obscure DOE’s ability to evaluate the efficiency of the
            other operations.

            When asked, Wackenhut officials stated that they train to meet
            DOE standards and not to a specified amount of time. Wackenhut
            officials view the time designated in the approved training plan as
            a goal, rather than a requirement. In addition, they indicated that
            as long as the protective force officers passed the DOE minimum
            qualification tests, then all the training requirements had been met.

            As noted in the Observations and Conclusions section of this
            report, hours of training may not be the only metric pertinent to
            evaluation of protective force training. However, according to
            DOE training officials, significant deviations from the time
            specified in an approved plan should be reported to the DOE site
            officials who approved the training plan, as certain combat
            readiness skills may be diminished if protective force training is
            significantly reduced. For example, the more time spent in
            training, the greater the opportunity for protective force personnel
            to gain increased familiarity with weapons and equipment and to
            improve their reaction times in emergency situations. Despite a 40
            percent reduction in training time, Wackenhut did not notify DOE
            of the reduced training hours. We believe that the Department
            should clearly establish whether hours in site annual training plans
            designated for refresher training are requirements or goals. If it is
            determined that the training plans are only goals, the Department
            should determine the extent to which deviations from the training
            hours in the approved plans are acceptable.

            We also noted that the DOE Office of Independent Oversight and
            Performance Assurance (OA), which is part of the DOE Office of
            Security and Safety Performance Assurance, identified several
            instances during a review of selected Oak Ridge Reservation
            protective force personnel in FY 2004 where certain tactical skills
            were deficient. In their classified report, OA officials



Page 5                                                     Details of Findings
                   recommended improvements to the tactical training provided by
                   Wackenhut. We observed that many of the courses that officers
                   completed in fewer training hours than designated in the approved
                   FY 2004 training plan involved tactical training.

PROTECTIVE FORCE   Protective force personnel at Y-12 routinely worked in excess of
OVERTIME           60 hours per week. This was in direct contradiction to the DOE
                   Protective Force Program Manual, which established a 60 hour
                   maximum threshold for safe operations. There was evidence that
                   working excessive overtime negatively impacted the ability or
                   willingness of some officers to complete required physical fitness
                   training.

                   The DOE Protective Force Program Manual states that protective
                   force work schedules should be no more than 60 hours per week
                   and must provide adequate training time and sufficient time off to
                   ensure personnel work at peak physical and mental effectiveness.
                   However, in May 2002, DOE approved a variance for the Oak
                   Ridge Reservation from this requirement to address additional
                   protection needs arising from September 11, 2001 (9-11), with the
                   agreement that additional protective force personnel would be
                   hired to address the increase in overtime and that officers would
                   not work more than 72 hours in any work week. Almost three
                   years after approving the variance, the protective force personnel
                   assigned to Y-12 continue to work excessive amounts of overtime.
                   For example, at Y-12, we found that in FY 2004, 39 percent of
                   SRT officers and 28 percent of other protective force officers
                   worked, on average, more than the 60 hours per week limit in the
                   DOE Protective Force Program Manual. Of these officers, over 40
                   percent worked more than 70 hours per week, with some
                   exceeding the 72 hour maximum work week established by the
                   variance.

Physical Fitness   Some protective force personnel cited excessive overtime as a
Training           reason for not completing required physical fitness training. In
                   10 CFR 1046, it requires that protective force personnel participate
                   in continuing physical fitness training to ensure that they can
                   effectively perform their normal and emergency duties. Until
                   November 2001, an on-site, supervised physical fitness program
                   was in place to meet this requirement. A primary goal of this
                   program was to improve safety by reducing the risk of injury to the
                   protective force. Under the current physical fitness training
                   program, the protective force is paid to train outside of work on an
                   honor system.




Page 6                                                           Details of Findings
               We questioned 10 randomly selected protective force officers at
               Y-12 about their physical fitness training. All of these officers
               disclosed that they did not always complete the required physical
               fitness training. They attributed this to the extensive amount of
               overtime they worked. Several officers reported to us that because
               they were not able to keep up with physical training, they were
               concerned about their declining physical fitness. Their concerns
               appear to be supported by an internal analysis of protective force
               physical fitness. This analysis showed the aerobic capacity of the
               protective force, which is a widely accepted indicator of fitness
               level, had declined by 3.3 percent between 2000 and 2003. We
               provided information regarding the issue of protective force
               officers accepting physical fitness training pay, but not completing
               physical fitness training, to the OIG Office of Investigations.

Overtime       The National Nuclear Security Administration’s (NNSA) Y-12
Requirements   Site Office Manager cited increased threat levels in the post 9-11
               environment, including several major revisions of the
               Department’s Design Basis Threat Policy and other increased
               security requirements, as factors leading to excessive overtime.
               The Site Manager indicated that Y-12 would like to do more to
               address the overtime situation, and, in some cases, has made
               progress in reducing protective force overtime. However, the Site
               Manager noted that significant funding constraints combined with
               increasing requirements have resulted in a continuing problem at
               Y-12 and other Department sites with protective force overtime. A
               Wackenhut official indicated that it could take several years before
               the protective force could be increased in strength enough that
               overtime requirements would not impact training time. We
               recognize that addressing current requirements and constraints
               with existing resources is a complex issue. However, the
               Department must take steps to realistically address the impact of
               continued excessive overtime on protective force readiness.

ON-THE-JOB     We found that some protective force personnel signed attendance
TRAINING       rosters for on-the-job refresher training without receiving the
               training. On-the-job refresher training for protective force officers
               is conducted during an officer’s normal work activities and
               includes training in a wide variety of topics, such as conducting
               security patrols, security alarm assessments, and hasty overt
               entries. We were told by some protective force officers that, on
               occasion, they would be asked if they needed training on a topic.
               If the officers indicated that they did not need training, they were
               allowed to sign the training attendance roster without receiving any
               training or demonstrating their proficiency in the training topic.



Page 7                                                        Details of Findings
                  The rosters were then used to give the officers credit for receiving
                  training. In addition, we identified four instances when a signature
                  on a training attendance roster was falsified, but we were unable to
                  identify who falsified the signatures. The matter regarding the
                  falsification of signatures was referred to the OIG Office of
                  Investigations.

RECOMMENDATIONS   Given the importance of the Oak Ridge Reservation to the Nation’s
                  security, we believe actions should be taken to ensure the
                  protective force is properly trained. Therefore, we recommend that
                  the Manager, Oak Ridge Office, and the Manager, Y-12 Site
                  Office, for their respective contracts with Wackenhut Services,
                  Inc.:

                  1. Determine if the protective force is receiving the appropriate
                     level of training necessary to meet the DOE training
                     requirements for protective force officers.

                  2. Ensure that Wackenhut reports the actual hours spent in
                     training by protective force personnel rather than the planned
                     hours.

                  3. Evaluate whether the variance that allowed Oak Ridge to
                     deviate from the DOE Protective Force Program Manual
                     overtime guidelines remains appropriate for the Oak Ridge
                     Reservation protective force.

                  4. If it is determined that the variance should remain in effect,
                     establish a time period for reevaluating the variance and
                     penalties for exceeding the approved variance.

                  5. Evaluate whether a supervised physical fitness training
                     program for protective force personnel should be reestablished
                     on-site to improve security readiness and to reduce the safety
                     and health risks to protective force personnel.

                  6. Strengthen internal controls for the on-the-job training program
                     to ensure that training credit is given only when training has
                     been received.

                  7. Evaluate the impact of the issues discussed in this report on
                     Wackenhut’s award fee.

                  We also recommend that the Director, Office of Security and
                  Safety Performance Assurance:



Page 8                                                           Recommendations
             8. Review the issues identified in this report and incorporate steps
                in future assessments at Oak Ridge and other DOE sites to
                ensure that protective force refresher training is being
                appropriately implemented.

             9. Examine whether hours in site annual training plans designated
                for refresher training are requirements or goals and develop
                guidelines regarding the extent, if any, that deviations from the
                training hours in the approved plans, such as training only to
                qualify at minimum standards, are acceptable.

MANAGEMENT   Management concurred with the findings and recommendations.
COMMENTS     Recommendation 2 was revised after comments were received
             from the Oak Ridge Office. The Oak Ridge Office subsequently
             advised us that they concurred with the revised recommendation.

             Management commented that protective force training is geared
             toward attaining and demonstrating a desired level of proficiency,
             rather than mandating a minimum amount of hours to train for the
             tasks, especially when proficiency has been proven in less than the
             allotted time. They advised that this “training to standard” is an
             accepted practice operationally and with the Department’s
             National Training Center. They also advised that evaluations of
             training by the Government Accountability Office, OA, OIG, and
             others have found the quality of protective force training meets
             Departmental requirements.

             Management commented that the number of hours worked by the
             protective force was within the collective bargaining agreement
             between Wackenhut and the protective force union, and the
             Department did not need to grant a variance to Wackenhut from
             meeting the DOE Protective Force Program Manual requirement
             regarding overtime.

             Finally, management commented that the current pass rate for the
             annual physical fitness tests is approximately 98 percent, which
             lends credence to the success of the offsite training program.

             Management’s comments are included in their entirety as
             Appendix C to this report.




Page 9                                              Management Comments
INSPECTOR   Management’s comments indicated a fundamental disagreement on
COMMENTS    the core issues in our report. We carefully considered the positions
            asserted by management and did not find them compelling.

            We recognize and acknowledge that planned training time by
            subject area is only one criterion in evaluating the implementation
            of a protective force training program. However, our review
            confirmed that Department security experts, based on years of
            experience and much consideration, developed the published
            training standards as a Department-wide benchmark. We
            concluded that these standards either are valid, and thus should be
            adhered to throughout the complex, or that Department security
            officials should declare the standards to merely be goals rather than
            requirements. If the standards are merely goals, the Department
            needs to determine what variation from the goal is acceptable
            given the security implications at sensitive sites such as Oak
            Ridge.

            Also, we did not assess the overall effectiveness of the training
            program at Oak Ridge, nor did we evaluate the security posture at
            the Reservation. However, we did note an FY 2004 review at Oak
            Ridge by the Department’s Office of Independent Oversight and
            Performance Assurance identified several instances where certain
            tactical skills of some protective force personnel were deficient,
            and recommended improvements to the tactical training being
            provided.

            Management disagreed with our concern regarding excessive
            overtime for the protective force. In support of its position,
            management cited the terms of the collective bargaining agreement
            with Wackenhut, which management claims allows protective
            force personnel to volunteer to work for up to 76 hours per week;
            the existence of a “post 9-11” variance from overtime limitations
            cited in DOE’s Protective Force Program Manual; and, the results
            of recent protective force physical fitness tests.

            With regard to the first point, while the collective bargaining
            agreement is an important issue, we concluded that it was
            incompatible with the stated objective of the DOE Protective Force
            Program Manual to ensure that protective force personnel worked
            at peak physical and mental effectiveness. Further, the variance
            granted post 9-11 by the Department security managers at Oak
            Ridge was intended only until such time as a sufficient number of
            protective force personnel could be hired and trained. Finally, with
            regard to the protective force fitness tests, as the report states, we



Page 10                                                  Inspector Comments
          were informed that there has actually been a degradation in the
          aerobic capacity of the protective force, which is a widely accepted
          indicator of fitness level.




Page 11                                               Inspector Comments
Appendix A

SCOPE AND     The fieldwork for this inspection was conducted between
METHODOLOGY   November 2004 and March 2005. The inspection included a
              comparison of training, payroll, and site access records for
              FY 2004 for 21 protective force officers that were randomly
              selected to represent all the sites and varying shifts. The inspection
              also included:

              •   Interviewing 45 people who administer, deliver or receive
                  protective force training;

              •   Reviewing FY 2004 annual training plans approved by the
                  Y-12 Site Office and the Oak Ridge Office;

              •   Reviewing the Y-12 Site Office and Oak Ridge Office
                  contracts for protective force services; and,

              •   Interviewing Federal and contractor security personnel.

              We found that the protective force contracts for the Oak Ridge
              Reservation contained appropriate performance measures to
              address protective force training, pursuant to the Government
              Performance and Results Act of 1993. This inspection was
              conducted in accordance with the “Quality Standards for
              Inspections” issued by the President’s Council on Integrity and
              Efficiency.




Page 12                                               Scope and Methodology
Appendix B

PRIOR OIG    The OIG has issued the following reports addressing protective
REPORTS      force training:

             •   The Department’s Basic Protective Force Training Program,
                 DOE/IG-0641, March 2004.

             •   Protective Force Performance Test Improprieties,
                 DOE/IG-0636, January 2004.

             •   Management of the Department’s Protective Forces,
                 DOE/IG-0602, June 2003.

             •   The Restructure of Security Services by the Oak Ridge
                 Operations Office, DOE/IG-0487, October 2000.

             •   Security Overtime at the Oak Ridge Operations Office,
                 ER-B-00-02, June 2000.




Page 13                                                    Prior OIG Reports
Appendix C




Page 14      Management Comments
Page 15   Management Comments
Page 16   Management Comments
Page 17   Management Comments
Page 18   Management Comments
Page 19   Management Comments
Page 20   Management Comments
Page 21   Management Comments
Page 22   Management Comments
Page 23   Management Comments
Page 24   Management Comments
                                                                    IG Report No. DOE/IG-0694

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers’ requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report’s overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
